                                O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


A cting Ins pe ctor Ge ne ral


Th e SocialSe curity Adm inis tration’
                                     s Inte rnalControl
                                                      s ove r Its Tim e and
A tte ndance PayrollRe cords


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our re vie w of th e SocialSe curity
Adm inis tration’  s (SSA )inte rnalcontrol   s ove r its tim e and atte ndance payrol    l
re cords (A-13-9 6-01001). Th e obje ctive of th is re vie w w as to e val       uate
e m ploye e s ' adh e re nce to pol
                                  icie s and proce dure s for docum e nting and re cording
tim e and atte ndance data for payrol      lpurpos e s in SSA ’  s O ffice of D is abil
                                                                                      ity and
Inte rnationalO pe rations .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                     Jam e s G. H us e , Jr.

A ttach m e nt
cc:

O IG/ES

Re ading Fil
e
Subje ct File
SSA /O IG/O A /CM A RK O W ITZ /m js /7-1-9 8 9 6-01001-FNL
Re port Fil
          e
                   E X E CUTIVE S U M M A R Y 


O BJECTIVE

Th e obje ctive of th is re vie w w as to e val
                                              uate e m pl
                                                        oye e s ' adh e re nce to policie s and
proce dure s for docum e nting and re cording tim e and atte ndance data for payrol         l
purpos e s in th e SocialSe curity Adm inis tration’ s (SSA )O ffice of D is abil ity and
Inte rnationalO pe rations (O D IO ).

BACKGROUND

Th e nature and e xte nt of tim e and atte ndance data m us t be s uch th at
m anage m e nt can re l     y on s upe rvis ors and oth e r official  s to corre ctl
                                                                                   y and
com pl   e te l
              y account for e m pl    oye e s ’atte ndance and pe riods of abs e nce . SSA
tim e k e e pe rs us e d th e D e partm e nt of H e alth and H um an Se rvice s ’(H H S)Guide For
Tim e k e e pe rs as th e ir prim ary guide to tim e and atte ndance m anage m e nt. In
addition, ove r th e ye ars , SSA m anage m e nt is s ue d a num be r of m e m oranda to
furth e r cl  arify and m anage e m pl    oye e and tim e k e e pe r actions .

For Fis calYe ar (FY)19 9 7, O D IO paid m ore th an $174.4 m il      lion in s al
                                                                                 arie s and
le ave be ne fits to 4,186 e m pl                 e cte d a random s am pl
                                oye e s . W e s e l                          e of
8 (from 171)tim e k e e ping units for audit. Payrol     lcos ts for th os e units am ounte d
to $430,630 for th e s ingl  e pay pe riod e nde d Nove m be r 23, 19 9 6.

O ur audit w as pe rform e d in accordance w ith ge ne ral   ly acce pte d gove rnm e nt
auditing s tandards . W e e xam ine d al   ltim e and atte ndance trans actions for
corre ctne s s and docum e ntation for th e units s e le cte d for re vie w . W e al so
conducte d an unannounce d vis it to e ach unit to ve rify th at e ach e m pl      oye e w h o
s igne d-in for w ork w as pre s e nt and accounte d for. In addition, w e re concil      ed
e ach e m pl       s M ainfram e Tim e and A tte ndance Sys te m (M TAS)re cord w ith
             oye e ’
avail abl e docum e ntation and note d undocum e nte d or inaccurate l       y re corde d tim e
and atte ndance data. Th e fie l    d w ork w as conducte d from January th rough
O ctobe r 19 9 7.

RESULTS O F REVIEW

W e found th at inte rnalcontrol   s w e re not cons is te ntl
                                                             y e nforce d to e ns ure th at all
bas ic tim e and atte ndance proce dure s w e re fol  low e d. Be caus e O D IO tim e k e e pe rs
w e re not m aintaining re q uire d tim e and atte ndance docum e ntation, th e y w e re


                                                 i
unabl   e to s uppl  y us w ith th e ne ce s s ary docum e ntation to s upport tim e and
atte ndance data e ntrie s in M TAS. As a re s ul        t, w e e s tim ate d th at th e
undocum e nte d trans actions w oul        d proje ct to $5.9 m il   lion in h ours w ork e d and
le ave s of abs e nce re corde d in M TAS. W e al       s o found th at tim e and atte ndance
data w e re not accurate l     y e nte re d into M TAS on a cons is te nt bas is . As a re s ul   t,
w e proje cte d th at tim e and atte ndance data val        ue d at $1.9 m il   lion for FY 19 9 7
h ad be e n inaccurate l   y re corde d in M TAS. W h il    e docum e ntation s h ow e d th at O D IO
tim e k e e pe rs h ad corre cte d M TAS e rrors /om is s ions e s tim ate d at $809 ,000, no
docum e ntation w as provide d to ide ntify th e re as ons for th e re m aining $1.1 m il         lion
in re cording inaccuracie s . Spe cific findings w e re :

�	 TIM EKEEPERS W ERE NO T CO M PLYING W ITH TIM E AND A TTEND A NCE
      PRO CEDURES

      Sign-In/O ut Ros te rs W e re Not Ve rifie d

      Tim e and Le ave D ocum e ntation W as Not Prope rl
   y M aintaine d
      W ork and Le ave D ata W as Not A l   w ay s A ccurate ly Re corde d on M TAS

�	 SUPERVISO RS W ERE NO T FULFILLING TH EIR TIM E AND A TTEND A NCE
      RESPO NSIBILITIES

      Sign-In/O ut Ros te rs W e re Not Ve rifie d
          ications for Le ave (Form SF-71)W e re Eith e r Incom pl
      A ppl                                                          e te or M is s ing
      Supe rvis ors ’Ce rtification of M TAS Data W as Ine ffe ctive

� INSUFFICIENT M A NAGEM ENT O VERSIGH T

CO NCLUSIO N A N D R E C O M M E N D A TIO NS

Bas e d on our audit of e igh t O D IO tim e k e e ping units , w e found th at inte rnal
control  s w e re not be ing adh e re d to on a cons is te nt bas is . D ocum e ntation h ad not
alw ays be e n “  re taine d as an officialage ncy re cord avail          able for re vie w and
               1
ins pe ction.”    Al s o, th e accuracy and com pl       e te ne s s of M TAS w as com prom is e d
be caus e e ntrie s w e re e ith e r om itte d, uns upporte d, or incorre ctl      y cate gorize d.
Furth e rm ore , s upe rvis ory re vie w s w e re not al    w ay s pe rform e d and te s ts w e re not
conducte d pe riodical     ly to e ns ure th e accuracy of tim e and atte ndance data. A s a
re s ul
      t, m anage m e nt coul    d not as s ure th at bas ic tim e and atte ndance proce dure s
w e re follow e d. Cons is te nt adh e re nce to inte rnalcontrol         s re q uire s com pl
                                                                                             e te ne s s of
data, accuracy in re cording and m aintaining s uch data, and e ns uring appropriate
auth orizations and approval        s . Th e s e m e as ure s are e s s e ntialfor e ns uring th e
inte grity of a tim e and atte ndance payrol         ls y s te m .

1
    Re vis ions to Titl
                      e 6 on Pay, Le ave , and A l
                                                 low ance s (GA O /A IM D -9 6-001c), M arch 19 9 6, Ch apte r 3.3 B.


                                                            ii
W e re com m e nd th at O D IO im pl
                                   e m e nt th e fol
                                                   low ing corre ctive actions w h ich
re q uire th at:

• Tim e k e e pe rs are ins tructe d on th e im portance of atte s ting to th e accuracy of
  tim e and atte ndance data w h e n approving and s igning s uch docum e nts .

• Tim e k e e pe rs adh e re to tim e and atte ndance pol    icie s and proce dure s by signing
  and atte s ting to th e val   idity of e ach s ign-in/s ign-out ros te r.

• Tim e k e e pe rs re tain and m aintain prope r tim e and atte ndance and l  e ave
  docum e ntation to s upport al     ltim e and atte ndance and l  e ave data in accordance
  w ith SSA re te ntion re q uire m e nts .

• Supe rvis ors ve rify re corde d M TAS inform ation to s ource docum e nts prior to
  ce rtification.

• Supe rvis ors inve s tigate th e re m aining 39 M TAS dis cre pancie s and provide
  appropriate corre ctions to e m pl   oye e s ' M TAS re cords .

• Tim e k e e pe rs and s upe rvis ors re vie w dail
                                                   y and ove rtim e s ign-in/s ign-out ros te rs
  and s ignify th at th e y are in agre e m e nt w ith th e inform ation containe d th e re on
  by signing e ach ros te r in th e s pace provide d.

• Supe rvis ors obtain, s ign, and ve rify Form s SF-71 for com pl
                                                                 e te ne s s and
  accuracy.

W e al
     s o re com m e nd th at SSA m anage m e nt:

• Provide for M TAS guidance w h ich w oul     d ins truct tim e k e e pe rs and s upe rvis ors
  of th e ne e d to conduct ade q uate re vie w s of tim e and atte ndance data prior to
  ve rifying and ce rtifying payrolldata be ing e nte re d in M TAS.

• Re q uire tim e k e e pe rs to us e th e appropriate M TAS corre ction proce dure s for
  m ak ing adjus ting corre ctions to tim e and atte ndance re cords .

• Re s um e O D IO inte grity re vie w s of tim e and atte ndance practice s and
  re cord-k e e ping in orde r to provide m anage m e nt an as s e s s m e nt of com pliance
  w ith inte rnalcontrolproce dure s . Th e fre q ue ncy of s uch re vie w s w oul   d be
  de pe nde nt on progre s s m ade by tim e k e e pe rs in im proving th e accuracy and
  com pl e te ne s s in re cording tim e and atte ndance data, as w e l   las m aintaining
  re l
     ate d s upporting docum e ntation.



                                               iii
W e al s o ide ntifie d s e ve raloth e r are as of conce rn. W h il   e e ach ite m in and of its e l  f
is not s ignificant, w e be l                       d be addre s s e d. Th e s e ite m s are ide ntifie d
                                 ie ve th e y s h oul
in th e "O th e r M atte rs " s e ction.

SSA CO M M ENTS

SSA concurre d w ith th e O ffice of th e Ins pe ctor Ge ne ral      ’s (O IG) findings and
re com m e ndations . H ow e ve r, SSA did w ant to note th at for th e pe riod th e audit
w as conducte d, th e buil     dings occupie d by O D IO (curre ntl    y k now n as O ffice of
Ce ntralO pe rations )w e re unde rgoing e xte ns ive re novation re q uiring fre q ue nt
m ove m e nt of fil e s and e q uipm e nt. Th e s e circum s tance s , al ong w ith th e s h ifting of
pe rs onne lto and from training cl      as s e s and as s ignm e nts outs ide th e ir norm alw ork
are a, re s ul
             te d in th e m is place m e nt of s om e payrol  ldocum e ntation.




                                                   iv
                      TA BLE O F CO NTENTS

                                                                                                Page

EXECUTIVE SUM M A RY..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................3


TIM EKEEPERS W ERE NO T CO M PLYING W ITH TIM E AND

A TTEND A NCE PO LICIES A ND PRO CEDURES. ...........................................3


� Sign-In/O ut Ros te rs W e re Not Ve rifie d. ...............................................3


� Tim e and Le ave D ocum e ntation W as Not Prope rl

                                                    y M aintaine d. ...............4

� W ork and Le ave D ata W e re Not A l
                                      w ay s Re corde d Accurate l
                                                                 y on M TAS...5

SUPERVISO RS W ERE NO T FULFILLING TH EIR TIM E AND A TTEND A NCE

RESPO NSIBILITIES................................................................................6


� Sign-In/O ut Ros te rs W e re Not Ve rifie d ................................................6


� A ppl
      ications for Le ave W e re Eith e r Incom pl

                                                 e te or M is s ing. .....................7


� Supe rvis ors ’Ce rtification of M TAS Data W as Ine ffe ctive . ......................7


INSUFFICIENT M A NAGEM ENT O VERSIGH T..............................................8


CO NCLUSIO NS AND RECO M M END A TIO NS..............................................9


O TH ER M A TTERS...............................................................................11


A PPEND ICES

A PPEND IX    A - Age ncy Com m e nts

A PPEND IX    B - Com putation O f Es tim ate s 

A PPEND IX    C - M ajor Contributors To Th is Re port

A PPEND IX    D - SSA O rganizationalCh art

                               INTR O D UCTIO N


O BJECTIVE

Th e obje ctive of th is re vie w w as to e val
                                              uate e m pl
                                                        oye e s ' adh e re nce to pol
                                                                                    icie s and
proce dure s for docum e nting and re cording tim e and atte ndance data for payrol        l
purpos e s in SSA ’ s O D IO .

BACKGROUND

Th e nature and e xte nt of tim e and atte ndance data m us t be s uch th at
m anage m e nt can re l    y on s upe rvis ors and oth e r official      s to corre ctl  y and
com pl       y account for e m pl
        e te l                         oye e s atte ndance and pe riods of abs e nce . To as s ure
accuracy and ach ie ve a h igh l        e ve lof re liability in SSA ’   s tim e and atte ndance data,
and in accordance w ith th e Ge ne ralA ccounting O ffice ’               s (GA O )guide l  ine s , al
                                                                                                     ltim e
and atte ndance re ports and s upporting docum e nts m us t be re vie w e d and approve d
by tim e k e e pe rs and s upe rvis ors . Approval      s s h oul  d be bas e d on pe rs onal
obs e rvation, w ork output, tim e k e e pe r ve rification, ch e ck ing data agains t oth e r
inde pe nde nt re s ource s , re l  iance on oth e r control     s , or a com bination of th e s e
m e th ods . Approval     s s h oul  d als o be bas e d on oth e r ne ce s s ary te s ts to ve rify th at
re corde d atte ndance and pe riods of abs e nce s are re as onabl             e and al   low abl e and to
th e be s t of th e tim e k e e pe rs ’and s upe rvis ors ’k now l    e dge are true , corre ct, and
accurate in accordance w ith appl            icable l aw s , re gul ations , pol icie s , and guide line s .

Th e fol l
         ow ing policie s and proce dure s provide guidance on tim e and atte ndance
m atte rs for SSA tim e k e e pe rs and s upe rvis ors :

•   H H S   Tim e k e e ping M anualfor Tim e k e e pe rs /Supe rvis ors
•   SSA     O D IO 's Tim e and A tte ndance Guide
•   SSA     M TAS Training M anual
•   SSA     M TAS User M anual
•   H H S   Guide For Tim e k e e pe rs
•   GAO     Pol icy and Proce dure s M anualfor Guidance of Fe de ralA ge ncie s
•   GAO     Re vis ions to Titl e 6 on Pay, Le ave , and A l   l
                                                               ow ance s

Additional     l
               y, SSA ’ s O ffice of H um an Re s ource s , in a s e rie s of inte rnalm e m oranda,
e xpre s s e d th e im portance of: (1) th e ne e d for s ignature s of both th e m anage r and
tim e k e e pe r on s ign-in/out form s ;(2) tim e k e e pe rs ' com paris on of e arnings and
le ave s tate m e nts of al  le m pl
                                   oye e s agains t adm inis trative tim e and l    e ave re cords s o


                                                     1

th at e rrors can be corre cte d im m e diate l
                                              y;and (3) th e im portance of h aving
ade q uate docum e ntation.

O D IO is re s pons ibl e for proce s s ing appl
                                               ications for SocialSe curity (title II)
dis ability be ne fits . M ore th an 4,000 adm inis trative and s upport s taff, incl uding
171 tim e k e e pe rs , w ork in O D IO and are locate d in s e ve rall
                                                                      ocations in and around
Bal tim ore , M aryl and.

For FY 19 9 7, O D IO paid m ore th an $174.4 m il       lion in s alarie s and l
                                                                                e ave be ne fits to
4,186 e m pl oye e s . In th e 8 tim e k e e ping units s e l
                                                            e cte d for audit, w e found th at
O D IO payrol lcos ts am ounte d to $430,630 (for a totalof 268 e m pl           oye e s ) for th e
s ingle pay pe riod e nde d Nove m be r 23, 19 9 6.

SCO PE AND M ETH O D O LO GY

To ach ie ve our obje ctive , w e : (1)inte rvie w e d SSA H e adq uarte rs ’h um an
re s ource s pe rs onne las w e l     las O D IO tim e k e e pe rs and th e ir m anage rs to de te rm ine
w h e th e r th e y w e re fol low ing th e proce dure s s pe cifie d in appl     icabl  e re gul ations and
guide l  ine s ;(2)s e l e cte d th e pay pe riod for Nove m be r 10 th rough 23, 19 9 6 and, on
a s im pl  e s tatis tically random s e l  e ction bas is , s e l
                                                                e cte d e igh t tim e k e e pe r units for
w h ich w e re vie w e d th e various tim e and atte ndance and l             e ave docum e nts
(e .g., Form s SSA-29 , Se rialO ve rtim e or H ol          iday W ork A tte ndance Ros te r;Form s
SSA -30, Se rialTim e and A tte ndance Ros te rs ;Form s SF-71, A ppl                   ication For Le ave ;
e tc.);(3)com pare d th e inform ation re porte d on th e re vie w e d docum e ntation to
e ach e m pl   oye e 's M TAS re cord to de te rm ine w h e th e r tim e and atte ndance and
le ave data w e re re porte d and re corde d corre ctl         y on a cons is te nt bas is ;and
(4)m ade unannounce d vis its to e ach of th e e igh t s e l           e cte d tim e k e e ping units to
ve rify th at e m pl   oye e s w e re pre s e nt if th e y h ad s igne d in on th at day's Form
SSA -30.

O ur audit w as pe rform e d in accordance w ith ge ne ral
                                                         ly acce pte d gove rnm e nt
auditing s tandards . Th e fie ld w ork w as conducte d from January th rough
O ctobe r 19 9 7.




                                                    2

                            R E S U LTS O F R E VIE W


W e found th at inte rnalcontrol       s w e re not cons is te ntl y e nforce d to e ns ure th at al l
bas ic tim e and atte ndance proce dure s w e re fol        low e d. Be caus e O D IO tim e k e e pe rs
w e re not m aintaining re q uire d tim e and atte ndance docum e ntation, th e y w e re
unabl   e to s uppl y us w ith th e ne ce s s ary docum e ntation to s upport tim e and
atte ndance data e ntrie s in M TAS. As a re s ul         t, w e e s tim ate d th at th e
undocum e nte d trans actions w oul        d proje ct to $5.9 m il    lion (s e e A ppe ndix A -1)in
h ours w ork e d and l    e ave s of abs e nce re corde d in M TAS. W e al        s o found th at tim e
and atte ndance data w e re not accurate l        y e nte re d into M TAS on a cons is te nt bas is .
A s a re s ult, w e proje cte d th at tim e and atte ndance data val         ue d at $1.9 m il  l
                                                                                                ion (s e e
A ppe ndix A -2) for FY 19 9 7 h ad be e n inaccurate l        y re corde d in M TAS. W h il    e
docum e ntation s h ow e d th at O D IO tim e k e e pe rs h ad corre cte d M TAS
e rrors /om is s ions e s tim ate d at $809 ,000 (s e e A ppe ndix A -3), no docum e ntation
w as provide d to ide ntify th e re as ons for th e re m aining $1.1 m il         lion in re cording
inaccuracie s . W e de te rm ine d th at im prove m e nts w e re ne e de d in: (1)tim e k e e pe r
com pl   iance w ith tim e and atte ndance pol      icie s and proce dure s ;(2)s upe rvis ory
re vie w of tim e k e e pe r pe rform ance ;and (3)m anage m e nt ove rs igh t.

TIM EK EEPERS W ERE NO T CO M PLYING W ITH TIM E AND A TTEND A NCE
PO LICIES AND PRO CEDURES

Tim e k e e pe rs w e re not com plying w ith tim e and atte ndance pol       icie s and
proce dure s w h ich re q uire d th e m to ve rify and atte s t by signature al     ls ign-in/s ign­
out ros te rs e ve ry day for th e ir units . In addition, tim e k e e pe rs w e re re q uire d to
re tain s uch docum e ntation for no l    e s s th an 3 ye ars , and re cord th e data into
M TAS com pl      e te l
                       y and accurate ly.

Sign-In/O ut Ros te rs W e re Not Ve rifie d

Tim e k e e pe rs w e re re q uire d to s ign and e nte r th e ir tim e k e e pe r num be r on th e
pre printe d s ignature l   ine l  ocate d at th e bottom of th e s ign-in/s ign-out ros te rs 2 in
orde r to ve rify th e tim e and atte ndance data. Ve rifications are confirm ations ,
us ual ly by tim e k e e pe rs , th at re corde d inform ation is true , corre ct, and accurate to
th e be s t of th e ir k now l e dge . Ve rification e nabl  e s tim e k e e pe rs to ch e ck or te s t th at
re corde d w ork -tim e is re as onabl     e and al l
                                                    ow abl  e.


2
    D ivis ion of M anage m e nt Support D ire ctor’
                                                   s m e m orandum , s e ction 6, e ffe ctive A pril3, 19 9 4.


                                                               3

W e re vie w e d 440 s ign-in/s ign-out ros te rs w h ich w e re re q uire d to be ce rtifie d by
tim e k e e pe rs . Th e tim e k e e pe rs did not s ign 119 (27 pe rce nt)of th e ros te rs . For
e xam pl   e , in 3 of th e 8 tim e k e e pe r units , tim e k e e pe rs h ad not s igne d 102 of
210 (49 pe rce nt)ros te rs .

Be caus e of ch ange s in O D IO tim e k e e pe r pe rs onne l    , w e w e re unabl  e to inte rvie w
alltim e k e e pe rs re garding th e ir fail
                                           ure to com pl    y w ith tim e and atte ndance pol      icie s
and proce dure s . Furth e rm ore , be caus e of th e tim e l       aps e be tw e e n th e pay pe riod
audite d and our inte rvie w s , as w e l   las th e vol   um e of tim e and atte ndance
trans actions tim e k e e pe rs proce s s e d, th e tim e k e e pe rs w e did inte rvie w w e re
typical ly unabl    e to re cal
                              ls pe cific e ve nts or re as ons for fail   ure to com pl   y.

Tim e and Le ave D ocum e ntation W as Not Prope rl
                                                  y M aintaine d

Be caus e e m pl  oye e s are paid, accrue l  e ave , and ch arge d l  e ave on an h ourl  y bas is ,
a com pl   e te and accurate re cord of th e h ours an e m pl     oye e w ork s or us e s le ave
m us t be re taine d as an officialage ncy re cord avail       able for re vie w or ins pe ction for
a pe riod of no l  e s s th an 3 ye ars .3 H ow e ve r, for th e payrol  lpe riod audite d, w e
ide ntifie d 130 ins tance s w h e re no s upporting docum e ntation coul        d be locate d for
836½ h ours of re corde d l     e ave or atte ndance . Th e ch art be l    ow e xplains th e
ins tance s of tim e and atte ndance for w h ich docum e ntation w as unavail           abl e:

                Tabl
                   e 1: SUPPO RTING D O CUM ENTA TIO N UNA VA ILA BLE
                                               A VERAGE      ESTIM A TED
            TYPE      FREQUENCY    H O URS     PAY RATE         VA LUE

          Re gul
               ar                            65            513½                  $16.9 7               $8,714

         O ve rtim e                         16              55½                 $25.45                $1,412

      AnnualLe ave                           24            155¾                  $16.9 7               $2,643

        Sick Le ave                          10              80                  $16.9 7               $1,358

     M is ce l
             lane ous                        15              31¾                 $16.9 7              $ 539
          Le ave

          TO TA LS                         130             836½                                       $14,666




3
    H H S’Tim e k e e ping M anualfor Tim e k e e pe rs /Supe rvis ors (Augus t 19 9 3)page s 1-14.


                                                               4
Al th ough th e tim e k e e pe rs w e inte rvie w e d ge ne rall
                                                               y coul d not re cal  ls pe cific
ins tance s of w h y ce rtain docum e ntation w as unavail        able , th e y did s tate th at
difficul ty e xis te d in obtaining s ign-in/s ign-out form s for e m pl    oye e s in training or
de taile d to anoth e r unit. Eve n th ough tim e k e e pe rs w oul   d obtain th e e m pl   oye e s '
tim e and atte ndance inform ation, th e y did not al        w ay s follow up on obtaining
s upporting docum e ntation. A s a re s ul       t, th e ove ral
                                                               linte grity of tim e and
atte ndance payrol      lre cords w as com prom is e d.

W ork and Le ave D ata W e re Not A l
                                    w ay s Re corde d Accurate l
                                                               y on M TAS

Th e prim ary obje ctive of a tim e and atte ndance s y s te m is to e ns ure th at th e h ours
w ork e d, h ours in pay s tatus , and h ours abs e nt are accurate l y re corde d and are
re l
   iable to com pute pay, l    e ave , and all
                                             ow ance s . To ach ie ve th is obje ctive ,
m anage m e nt is re q uire d to h ave in place inte rnalcontrols y s te m s th at provide
re as onabl e as s urance th at tim e and atte ndance data are “. . . com pl    e te l
                                                                                     y and
                                               4
accurate l y re corde d and re taine d . . . .“

O ur audit re ve al
                  e d 67 dis cre pancie s , re pre s e nting 19 4¾ h ours , w h e re tim e and
atte ndance data w e re om itte d or inaccurate l     y re corde d.

W e found:

�	 19 ins tance s of l
                     e ave , total
                                 ing 65½                h ours , us e d by e m pl
                                                                                oye e s h ad not be e n
    re corde d;

� 9 ins tance s w h e re e m pl
                              oye e s ’accounts h ad be e n cre dite d w ith a totalof
    10½     h ours l
                   e ave th at h ad not be e n e arne d;

�	 15 ins tance s w h e re e m pl
                                oye e s h ad be e n ch arge d w ith us ing l
                                                                           e ave , total
                                                                                       ing
    48½ h ours , w h e n e xis ting docum e ntation dis cl
                                                         os e d th at th e e m pl
                                                                                oye e s h ad
    w ork e d;

� 15 ins tance s , total
                       ing 18¼ h ours , w h e re e m pl
                                                      oye e s h ad accrue d l
                                                                            e ave and/or
    ove rtim e th at h ad not be e n re corde d to th e ir M TAS accounts ;and

� 9 ins tance s , total
                      ing 52 h ours , w h e re tim e or l
                                                        e ave data h ad be e n re corde d to
    M TAS in th e w rong cate gory;i.e ., s ick l
                                                e ave as annuall
                                                               e ave , e tc.

In an e ffort to ack now l
                         e dge SSA 's actions in ide ntifying and corre cting inaccurate
and/or om itte d tim e and atte ndance data, w e e xam ine d M TAS re cords for th e

4
   In accordance w ith Re vis ions to Titl
                                         e 6 on Pay, Le ave , and A l
                                                                    low ance s (GA O /A IM D -9 6-001C), M arch
19 9 6, Ch apte r 3.3.


                                                          5

4 pay pe riods s ubs e q ue nt to th e pay pe riod us e d in our s am pl     e to de te rm ine if any
of th e 67 dis cre pancie s h ad be e n corre cte d. W e found th at onl       y 12
(17.9 pe rce nt)of th e 67 dis cre pancie s h ad be e n corre cte d. W e al        s o contacte d th e
m anage rs re s pons ibl  e for th e 8 tim e k e e ping units b e ing audite d in re gard to th e
re m aining 55 dis cre pancie s . According to th e m anage rs , 4 dis cre pancie s w e re
ide ntifie d and s ubs tantiate d as com pe ns ating adjus tm e nts for prior pay pe riod
re porting inaccuracie s . Th is practice w as not in accordance w ith M TAS guidance
w h ich re q uire d us e of a re troactive adjus tm e nt, am e ndm e nt, or l   e ave corre ction
action. Furth e rm ore , th e M TAS training m anualre q uire d th e adjus tm e nt to be
annotate d on th e e m pl   oye e s M TAS re cord, th e re by ide ntifying th e corre ction
adjus tm e nt. Ave rting inte rnalcontrol      s to e xpe dite payrol  linform ation introduce s
th e ris k of unauth orize d trans actions b e ing e nte re d into th e tim e and atte ndance
payrol   ls y s te m .

None of th e m anage rs re fute d th e dis cre pancie s and, prior to concl    us ion of our
re vie w , m anage rs indicate d th at 12 of th e 51 dis cre pancie s h ad e ith e r be e n
corre cte d or th e ir corre ction w as forth com ing. No oth e r inform ation w as provide d
conce rning th e re m aining 39 dis cre pancie s .

Al th ough tim e k e e pe rs inte rvie w e d coul   d not de te rm ine th e re as on th e above
dis cre pancie s occurre d, w e w e re inform e d by tim e k e e pe rs and m anage m e nt th at
                             ie ve d th at offs e tting an e rror for a pre vious pay pe riod by
s om e tim e k e e pe rs b e l
cre ating a counte r-bal     ancing e ntry in a l    ate r pay pe riod w as an acce ptabl   e
practice .

SUPERVISO RS W ERE NO T FULFILLING TH EIR TIM E AND A TTEND A NCE
RESPO NSIBILITIES

Th e prim ary obje ctive of tim e and atte ndance s y s te m s is to e ns ure th at th e
e m ploye e s ’h ours in pay s tatus or abs e nce of s e rvice , are re porte d accurate l     y and
com pl  e te l
             y. M ore s pe cifical ly, GA O ’  s Policy and Proce dure s M anualfor Guidance
of Fe de ralA ge ncie s s tate s ". . . s upe rvis ors are accountabl     e for . . . th e w ork tim e
and abs e nce of e m pl  oye e s for w h om th e y are re s pons ibl  e . . . ." Furth e rm ore ,
s upe rvis ors are ch arge d w ith th e re s pons ibil  itie s of: (1)ge tting le ave s upporting
docum e nts from e m pl   oye e s ;(2)re vie w ing tim e k e e pe r pe rform ance re gul   arl
                                                                                             y;and
(3)ce rtifying th at th e tim e k e e pe r is proficie nt in pe rform ance of tim e k e e ping
dutie s .5

Sign-In/O ut Ros te rs W e re Not Ve rifie d



5
    H H S Guide For Tim e k e e pe rs , page s 2-10 and 2-11.



                                                                6

M anage rs /s upe rvis ors are re s pons ibl   e for ve rifying th at tim e and atte ndance data
are true , corre ct, and accurate to th e be s t of th e ir k now l     e dge , as w e l
                                                                                       las to e ns ure
th at th e tim e k e e pe rs are pe rform ing th e ir tim e and atte ndance dutie s proficie ntl   y.
By s igning th e tim e and atte ndance form s w h e re re q uire d, m anage rs /s upe rvis ors
al s o affirm th at th e re corde d tim e and atte ndance data are re as onabl        e and
al low abl  e .6 In th e cours e of our audit, w e re vie w e d 59 1 s ign-in/s ign-out ros te rs
w h ich w e re re q uire d to be ce rtifie d by m anage rs /s upe rvis ors . O ur re vie w
dis cl os e d th at th e m anage rs /s upe rvis ors did not s ign 9 6 (16 pe rce nt)of th e
ros te rs . O f th e 9 6 ros te rs , 69 w e re not s igne d by e ith e r a m anage r/s upe rvis or or
tim e k e e pe r.

Additional  ly, one of th e m anage rs al       l
                                                ow e d a tim e k e e pe r to s ign-in and s ign-out on
th e s am e ros te r th e tim e k e e pe r w as ve rifying, e ve n th ough tim e k e e pe rs are
proh ibite d from ve rifying th e ir ow n tim e .7

A ppl
    ications for Le ave W e re Eith e r Incom pl
                                               e te or M is s ing

Exce pt for e m e rge ncie s , alll e ave is to be re q ue s te d in advance in w riting to th e
e m ploye e 's s upe rvis or. Th e Form SF-71 w as d e s igne d to s atis fy th is re q uire m e nt.
Supe rvis ors are to re vie w Form s SF-71 for com pl         e te ne s s and accuracy and, if th e
re q ue s t is approve d, s ign th e form in th e appropriate pl       ace .8 O ur audit re ve aled
th at in 51 (10 pe rce nt)of 525 s ituations re q uiring Form s SF-71, none coul              d be
locate d. Th e m is s ing Form s SF-71 re pre s e nte d m ore th an 267 h ours of l        e ave
us e d. O f th e 474 Form s SF-71 pre s e nt, 57 (12 pe rce nt)w e re incom pl         e te ,
re pre s e nting m ore th an 267 h ours of l   e ave .

Supe rvis ors ’Ce rtification of M TAS Data W as Ine ffe ctive

Th e s upe rvis ory ce rtification proce s s is a crucialinte rnalcontrolth at affords an
opportunity to ide ntify e rrors and corre ct tim e and atte ndance e ntrie s be fore th e y
are e nte re d into M TAS. M anage rs /s upe rvis ors are ch arge d w ith th e re s pons ibil        ity
of re vie w ing and ce rtifying tim e and atte ndance e ntrie s prior to s ubm is s ion for
paym e nt th rough M TAS and th e payrol          ls y s te m . M TAS ins tructions al    s o advis e
th e ce rtifie r to le ave th e ce rtify/de ny fie ld e m pty if h e /s h e is not ce rtain as to
w h e th e r to ce rtify or de ny. Th is e nabl  e s th e ce rtifie r to re turn to th e re cord for
ce rtification afte r inve s tigation. A s dis cus s e d e arl  ie r, w e ide ntifie d 67 ins tance s
re pre s e nting m ore th an 19 4¾ h ours of w ork and l         e ave th at h ad be e n incorre ctl  y

6
   Se ction 6 of th e M arch 29 , 19 9 4 m e m orandum from th e D ire ctor of th e D ivis ion of M anage m e nt Support,
O ffice of O pe rations , e ffe ctive A pril3, 19 9 4.
7
   M e m orandum , is s ue d June 25, 19 9 1, by th e A cting D e puty Com m is s ione r for H um an Re s ource s to al
                                                                                                                      lSSA
s upe rvis ors and tim e k e e pe rs .
8
    H H S’Tim e k e e ping M anualfor Tim e k e e pe rs /Supe rvis ors (Augus t 19 9 3)page s 4-6.



                                                               7

re corde d to M TAS by tim e k e e pe rs . Prope r ce rtification by th e s upe rvis or w oul
                                                                                            d
h ave re s ul
            te d in ide ntifying th e e rrors com m itte d by th e tim e k e e pe rs .

Be caus e of ch ange s in O D IO m anage m e nt pe rs onne l    , w e w e re unabl e to inte rvie w
allm anage rs w h o w e re re s pons ibl e for ve rifying Form s SSA-29 and
Form s SSA -30, obtaining com pl      e te d Form s SF 71 or e ns uring tim e and atte ndance
data w e re com pl   e te l
                          y and accurate l  y e nte re d into M TAS. Al   s o, as a re s ul
                                                                                          t of tim e
laps e d be tw e e n th e pay pe riod audite d and our inte rvie w s , as w e l las th e vol um e
of tim e and atte ndance trans actions tim e k e e pe rs proce s s e d, al   lm anage rs w e re not
able to provide an e xpl     anation as to w h y ce rtain e ve nts occurre d or re as ons for
   ure to com pl
fail                y.

INSUFFICIENT M A NAGEM ENT O VERSIGH T
GAO 's Standards for Inte rnalControl
                                    s in th e Fe de ralGove rnm e nt s tate s :

   ". . . Th e ultim ate re s pons ibil ity for good inte rnalcontrol     s re s ts w ith
   m anage m e nt . . ., th e re fore , . . . inte rnalcontrol s are m anage m e nt control
                                                                                          s.
   Good inte rnalcontrol     s are e s s e ntialto ach ie ving th e prope r conduct of
   Gove rnm e nt bus ine s s w ith ful   laccountabil   ity for th e re s ource s m ade
   avail able . . . ."

Prior to 19 9 6, SSA 's O D IO Inte grity and Se curity Branch (ISB), conducte d routine
audits of O D IO tim e k e e pe rs . H ow e ve r, due to oth e r prioritie s , ISB h as b e e n unabl   e
to continue to pe rform s uch audits . W e be l      ie ve th e s e re vie w s s h oul
                                                                                     d be re s um e d
to e ns ure th at m anage rs /s upe rvis ors and tim e k e e pe rs are adh e ring to e s tabl  is h e d
inte rnalcontrol  s d e s igne d to m aintain th e inte grity and accuracy of tim e and
atte ndance data.




                                                   8

    CO NCLUSIO NS AND RECO M M END A TIO NS


W e found th at inte rnalcontrol        s w e re not be ing adh e re d to on a cons is te nt bas is .
D ocum e ntation h ad not al       w ays be e n “  re taine d as an officialage ncy re cord
avail abl e for re vie w and ins pe ction.”9 A l       s o, th e accuracy and com pl   e te ne s s of
M TAS w as com prom is e d be caus e e ntrie s w e re e ith e r om itte d, uns upporte d, or
incorre ctl y cate gorize d. Furth e rm ore , s upe rvis ory re vie w s w e re not al     w ay s
pe rform e d and te s ts h ad not be e n conducte d pe riodical        ly to e ns ure th e accuracy
of tim e and atte ndance data. A s a re s ul          t, m anage m e nt coul d not be as s ure d th at
bas ic tim e and atte ndance proce dure s w e re be ing fol          ow e d. Cons is te nt adh e re nce
                                                                     l
to inte rnalcontrol    s re q uire s com pl  e te ne s s of data, accuracy in re cording and
m aintaining s uch data, and e ns uring appropriate auth orizations and approval                   s.
Th e s e m e as ure s are e s s e ntialfor e ns uring th e inte grity of a tim e and atte ndance
payrol  ls y s te m . As a re s ul  t, w e re com m e nd th at O D IO m anage m e nt e ns ure th at:

1. Tim e k e e pe rs are ins tructe d on th e im portance of atte s ting to th e accuracy of
   tim e and atte ndance data w h e n approving and s igning s uch docum e nts .

2. Tim e k e e pe rs adh e re to tim e and atte ndance pol    icie s and proce dure s by signing
   and atte s ting to th e val   idity of e ach s ign-in/s ign-out ros te r.

3. Tim e k e e pe rs re tain and m aintain prope r tim e and atte ndance and l  e ave
   docum e ntation to s upport al     ltim e and atte ndance and l  e ave data in accordance
   w ith SSA re te ntion re q uire m e nts .

4. Supe rvis ors ve rify re corde d M TAS inform ation to s ource docum e nts prior to
   ce rtification.

5. Supe rvis ors inve s tigate th e re m aining 39 M TAS dis cre pancie s and provide
   appropriate corre ctions to e m pl   oye e s ' M TAS re cords .

6. Tim e k e e pe rs and s upe rvis ors re vie w dail
                                                    y and ove rtim e s ign-in/s ign-out ros te rs
   and s ignify th at th e y are in agre e m e nt w ith th e inform ation containe d th e re on
   by signing e ach ros te r in th e s pace provide d.

7. Supe rvis ors obtain, s ign, and ve rify Form s SF-71 for com pl
                                                                  e te ne s s and
   accuracy.


9
    Re vis ions to Titl
                      e 6 on Pay, Le ave , and A l
                                                 low ance s (GA O /A IM D -9 6-001c), M arch 19 9 6, Ch apte r 3.3 B.


                                                             9

W e al
     s o re com m e nd th at SSA m anage m e nt:

8. Provide for M TAS guidance w h ich w oul     d ins truct tim e k e e pe rs and s upe rvis ors
   of th e ne e d to conduct ade q uate re vie w s of tim e and atte ndance data prior to
   ve rifying and ce rtifying payrolldata be ing e nte re d in M TAS.

9 . Re q uire tim e k e e pe rs to us e th e appropriate M TAS corre ction proce dure s for
    m ak ing adjus ting corre ctions to tim e and atte ndance re cords .

10. Re s um e O D IO inte grity re vie w s of tim e and atte ndance practice s and
    re cord-k e e ping in orde r to provide m anage m e nt an as s e s s m e nt of com pliance
    w ith inte rnalcontrolproce dure s . Th e fre q ue ncy of s uch re vie w s w oul   d be
    de pe nde nt on progre s s m ade by tim e k e e pe rs in im proving th e accuracy and
    com pl e te ne s s in re cording tim e and atte ndance data, as w e l   las m aintaining
       ate d s upporting docum e ntation.
    re l

SSA CO M M ENTS

SSA concurre d w ith O IG’     s findings and re com m e ndations . H ow e ve r, SSA did
w ant to note th at for th e pe riod th e audit w as conducte d, th e buil       dings occupie d
by O D IO (curre ntl y k now n as O ffice of Ce ntralO pe rations )w e re unde rgoing
e xte ns ive re novation re q uiring fre q ue nt m ove m e nt of file s and e q uipm e nt. Th e s e
circum s tance s , along w ith th e s h ifting of pe rs onne lto and from training cl     as s e s
and as s ignm e nts outs ide th e ir norm alw ork are a, re s ul  te d in th e m is pl
                                                                                     ace m e nt of
s om e payrol   ldocum e ntation.




                                                 10

                              O TH ER M A TTERS


W e als o ide ntifie d s e ve raloth e r are as of conce rn. W h il   e e ach ite m in and of its e l
                                                                                                    f
is not s ignificant, w e be l   ie ve th e y s h oul
                                                   d be addre s s e d.

1. O f 2,651 individuals ign-out occurre nce s e xam ine d, in 88 (3.3 pe rce nt)
   occurre nce s th e e m pl
                           oye e s did not s ign-in or s ign-out in ch ronol
                                                                           ogicalorde r.

2. Em ploye e s w e re not prope rl  y re cording th e type of l
                                                               e ave us e d or, w h e n l
                                                                                        e ave
   w as us e d in conjunction w ith l   unch pe riod, annotating tim e of abs e nce on a
   cons is te nt bas is on th e Se rialTim e and A tte ndance Ros te r (Form s SSA-30).

3. O f 358 ins tance s w h e re e m pl
                                     oye e s w e re partially abs e nt from w ork ,
   13 (4 pe rce nt)ins tance s w e re not prope rl  y re corde d unde r th e appropriate
   l
   e ave colum n.

4. In 14 of th e 358 ins tance s of l
                                    e ave us e d, th e e m pl
                                                            oye e did not re cord th e tim e
   of abs e nce on th e Form SSA -30.

5. O f 131 ins tance s w h e re e m ploye e s us e d l
                                                     e ave or fl
                                                               e xtim e in conjunction w ith
   th e ir l
           unch pe riod, th e e m ploye e s fail             y annotate th e ir l
                                               e d to prope rl                  unch pe riod
   in th e com m e nts portion of th e Form SSA -30 in 27 (21 pe rce nt)ins tance s .

6. Em pl oye e s w ork ing ove rtim e fail
                                         e d to re cord th e ir grade and/or s te p on th e
   Se rialO ve rtim e or H oliday W ork A tte ndance Ros te r (Form SSA -9 )in
   264 (42 pe rce nt)ins tance s out of a pos s ibl   e 636 ins tance s of ove rtim e .

7. M O D m anage rs /s upe rvis ors w e re not cons is te ntl y re q uiring e m ploye e s w ork ing
   cre dit h ours to com pl  e te a cre dit h our w ork re q ue s t form to s e cure s upe rvis ory
   approvalbe fore w ork ing cre dit h ours . O f 316 ins tance s re q uiring re q ue s ts to
   w ork cre dit h ours , onl y 125 (40 pe rce nt)cre dit h our approvalform s w e re
   avail abl e . Furth e rm ore , 40 of th e 19 1 (21 pe rce nt) form s avail   able h ad not
   be e n prope rly or ade q uate l y com pl  e te d.

8. SSA 's O D IO tim e k e e pe rs w e re not cons is te ntly com ple ting th e h e ading of
   re q uire d data ide ntifying th e tim e k e e ping unit and h ours of ope ration. O f
   575 SSA tim e and atte ndance form s (Form s SSA-29 and Form s SSA -30)
   e xam ine d, 9 7 (17 pe rce nt)did not contain re q uire d h e ading data.




                                                 11

9 . O f 59 1 Se rialTim e and A tte ndance Ros te rs (Form s SSA-30)and Se rial
    O ve rtim e or H ol iday W ork A tte ndance Ros te rs (Form s SSA-29 ), th e tim e k e e pe r
    fail
       e d to l ine th rough th e bl
                                   ank s pace s , as provide d, on th e ros te rs in
    19 0 (32 pe rce nt)of th e form s .




                                               12

A PPEND ICES

                      A PPEND IX A



AGENCY CO M M ENTS

                                                                                                     A PPEND IX B



                    CO M PUTA TIO N O F ESTIM A TES


             SCH EDULE FO R ESTIM A TED VA LUE O F UND O CUM ENTED
         O FFICE O F D ISABILITY AND INTERNA TIO NA LO PERA TIO NS (O D IO )
              PAYRO LLTRANSACTIO NS FO R FISCA LYEAR (FY)19 9 71


                                        Bas e 2                  Le ave              O ve rtim e         Total

         TotalPayrol l                    $284,403                    $81,009             $65,218         $430,630
           Te s te d


    Es tim ate d Val
                   ue of
      Undocum e nte d                         $8,714                  $4,539 3              $1,412         $14,665
        Trans actions


         Pe rce nt of
       Undocum e nte d                     3.0640%                   5.6031%             2.1650%
           Payrol l


    TotalO D IO Payrol
                     l $117,9 31,59 3                         $30,226,640            $26,311,533 $174,469 ,766
       for FY 19 9 7

      Es tim ate d Dol
                     lar
           Val ue of
      Undocum e nte d                  $3,613,424               $1,69 3,629             $569 ,645       $5,876,69 8
        O D IO Payroll
      Trans actions for
           FY 19 9 7

1
    Sch e dul
            e h as b e e n adjus te d for ge ograph ic diffe re ntial(l
                                                                      ocal
                                                                         ity pay).
2
    Bas e Pay re pre s e nts re gul
                                  ar and h ol
                                            iday pay.
3
    A m ount diffe rs from th e s um of th e th re e l
                                                     e ave cate gorie s in Tabl
                                                                              e 1 due to rounding.



                                                              B-1

                      O D IO M TAS DATA RECO RD ING ERRO RS FO R FY 19 9 7


                                                                          Error In                Factor4 To                 Proje cte d
                                               Es tim ate d                Payrol l                Proje ct                    Error
                        H ours In                  Pay                     Val ue                O D IO Error                For O D IO
                          Error                   Rate                       (C)                For FY 19 9 7                FY 19 9 7
                           (A)                      (B)                    (A*B)                      (D )                    E(D *C)

    Bas e 5 Pay                 16.25                 $16.9 76                 $275.76                      555.75              $153,254


    Le ave Paid               166.25                  $16.9 76             $2,821.26                        555.75           $1,567,9 15


    O ve rtim e                 12.25                 $25.456                  $311.76                      555.75              $173,261


      Total
          s                   19 4.75                                      $3,408.78                                         $1,89 4,430




4
   To obtain a nons tatis ticale s tim ate , cons ide ring th at pay pe riod 25 re pre s e nts a typicalFY 19 9 7 pay pe riod,
th e num be r of pay pe riods in a ye ar (26)w as m ul     tiplie d by th e totalO D IO tim e k e e pe r units (171)and divide d
by th e num be r of s tatis tical
                                ly random tim e k e e ping units re vie w e d (8), w h ich yie lde d an e s tim ation e rror factor
of 555.75.
5
    Bas e cate gory re pre s e nts both re gul
                                             ar and h ol
                                                       iday payrol
                                                                 l.
6
  To obtain a nons tatis ticale s tim ate of ave rage h ourly bas e pay for FY 19 9 7, th e totalpay for re gul    ar h ours
and le ave w as divide d by th e totalre gul ar h ours of w ork available (for ove rtim e , th e re s ul
                                                                                                       t w as m ul
                                                                                                                 tiplie d by
1.5).


                                                              B-2

             O D IO M TAS DATA RECO RD ING ERRO RS FO R FY 19 9 7 ID ENTIFIED
                        AND CORRECTED 7 BY O D IO PRIO R TO A UD IT

                                                                            Error In               Factor8 To                  Proje cte d
                                                Es tim ate d                Payrol l                 Proje ct                    Error
                         H ours In                  Pay                      Value                 O D IO Error                For O D IO
                           Error                   Rate                       (C)                 For FY 19 9 7                FY 19 9 7
                            (A)                      (B)                     (A*B)                      (D )                    E(D *C)

     Bas e 9 Pay                   0.00               $16.9 710                      $0.00                    555.75                      $0.00


    Le ave Paid                  76.75                $16.9 710              $1,302.45                        555.75               $723,837


     O ve rtim e                   6.00               $25.4510                  $152.70                       555.75                    $84,863


       Total
           s                     82.75                                       $1,455.15                                             $808,700




7
   Ide ntifie d and corre cte d incl
                                   ude s th os e e rrors O D IO tim e k e e pe rs ide ntifie d and corre cte d as pe r proce dure s ,
as w e llas th e inappropriate e ntrie s to offs e t prior pay pe riod e rrors /om is s ions .
8
   To obtain a nons tatis ticale s tim ate , cons ide ring th at pay pe riod 25 re pre s e nts a typicalFY 19 9 7 pay pe riod,
th e num be r of pay pe riods in a ye ar (26)w as m ul    tipl ie d by th e totalO D IO tim e k e e pe r units (171)and divide d
by th e num be r of s tatis tical
                                ly random tim e k e e ping units re vie w e d (8), w h ich yie lde d an e s tim ation e rror factor
of 555.75.
9
     Bas e cate gory re pre s e nts both re gul
                                              ar and h ol
                                                        iday payrol
                                                                  l.
10
  To obtain a nons tatis ticale s tim ate of ave rage h ourl
                                                           y bas e pay for FY 19 9 7, th e totalpay for re gul   ar h ours
and le ave w as divide d by th e totalre gular h ours of w ork availabl
                                                                      e (for ove rtim e , th e re s ul
                                                                                                     t w as m ul
                                                                                                               tiplie d by
1.5).


                                                                B-3

B-4

                                                                                  A PPEND IX C



  M A JO R CO NTRIBUTO RS TO TH IS REPO RT


O ffice of th e Ins pe ctor Ge ne ral

E. Scott Patte rs on, D ire ctor Evaluations and Te ch nicalSe rvice s
CarlK . M ark ow itz, Audit M anage r
Th om as P. Te nnant, Auditor-in-ch arge
Frank lin H . W il
                 liam s , Se nior Auditor
Ste ve W . W e al, Auditor

For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Public A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -13-9 6-01001.
